No. 20-1606
IN THE
Supreme Court of tfje

fHntteb States:

BRETT HENDRICKSON

Petitioner ,

v.

AFSCME COUNCIL 18, ET AL.,
Respondents .

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h) , I cer tify that the Brief In Opposition of Respondent
AFSCME Council 18 in the above entitled case com plies with the typeface requirement of Supreme Court
Rule 33.1(b) , being prepared in Century Schoolbook 12
point type for the text and 10 point for the footnotes,
and that the brief complies with the word limit specified by Rule 33.1(g) (ii) because it contains 4004 words,
excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Dated: September 24, 2021

Scott A. Kronland
ALTSHULER BERZON LLP
177 Post Street , Suite 300
San Francisco, CA 94108
(415) 421- 7151
skronland@altber.com
Counsel for Respondent
AFSCME Council 18

